       Department of the Interior
       Office of Inspector General



          Advisory Report




              Bighorn Canyon National Recreation Area (OIG Photo)




          National Park Service


 Administration of the Contract to Build a
Breakwater Dock and Log Boom Fairway at
Bighorn Canyon National Recreation Area




     Report No. Q-CX-NPS-0004-2007
              January 2008
                                 United States Department of the

                                             Interior

                                        OFFICE OF INSPECTOR GENERAL

                                                 Central Region

                                            134 Union Blvd, Suite 510

                                              Lakewood CO 80228




January 25, 2008

Memorandum

To:         John Norway
            Termination Contracting Officer

From:       Jack Rouch                  ~//~
            Regional Audit Man     er      f/
Subject:    Advisory Report, Administration of the Contract to Build a Breakwater Dock
            and Log Boom Fairway at Bighorn Canyon National Recreation Area

        The attached report presents our observations concerning the National Park
S'ervice's (NPS) contract administration from our audit of the contractor's settlement
costs (Report No. Q-CX-NPS-0004-2006). The purpose of this audit was to determine
whether claimed settlement costs were allowable under applicable federal laws and
regulations, allocable to the contract and incurred in accordance with the terms and
conditions of the subject contract, and reasonable and supported by contractor records.

        The scope of our audit did not include an evaluation ofNPS' administration of the
contract; however, during our audit, we observed deficiencies in NPS' administration of
the contract that we wanted to bring to your attention. Specifically, we found that NPS
did not effectively administer the contract because it:

        >   Disregarded indications that the contractor may not have been qualified.

        >   Issued an incomplete and inaccurate contract.

        >   Ineffectively monitored the contract and maintained inadequate contract files.

       These issues were not included in our audit report, unless they directly affected
our conclusions on the claimed settlement costs. Additionally, these issues relate only to
the audited contract and we did not determine whether they represent systemic issues in
NPS' management of contracts.

        We suggest that park superintendents and other NPS managers be advised of the
lessons to be learned from the Bighorn Canyon National Recreation Area experience so
that similar mistakes can be avoided on future construction projects undertaken at the
parks. To assist in that effort, we have prepared our advisory report as a PowerPoint
presentation that can be used as a training aide. The report provides eight suggestions for
addressing these issues in the future. We are prepared to assist in your efforts to
broadcast this information. Specifically, we would make available to you one of our
team members to present the material and discuss any questions your staff may have
regarding the information.

       Because the advisory report does not provide formal recommendations, a written
response is not required. We wish to thank officials from the Intermountain Region and
Bighorn Canyon National Recreation Area for their assistance in obtaining the
information needed to prepare this presentation. If you have any questions regarding our
review or the presentation, please feel free to contract me at (303) 236-9243.


Attachment
    Office of Inspector General
    Department of the Interior

Administration of the Contract to
Build a Breakwater Dock and Log
Boom Fairway at Bighorn Canyon
    National Recreation Area

         Observations
           National Park Service
               January 2008
                     Introduction

In September 2004, the National Park Service (NPS)
awarded a firm-fixed price design-build contract to an
8(a) company for design, fabrication and installation of a
modular floating breakwater dock.

In March 2006, NPS terminated the contract for the
convenience of the Government because:

 The parties did not have a mutual understanding of the
  importance of a complete design and dock system, and

 The Government team had lost confidence that the contractor
  could perform the work.

        Administration of the Contract to Build a Breakwater Dock and Log   2
          Boom Fairway at Bighorn Canyon National Recreation Area
                               Issue

In June 2006, the Termination Contract Officer (TCO)
requested an audit of the Prime Contract Termination
Settlement Proposal and Subcontract Settlements. As
part of the Termination audit, we found that NPS did not
effectively administer the contract. Specifically, NPS:
 Disregarded indications that the contractor may not have been
  qualified.

 Issued an incomplete and inaccurate contract.

 Ineffectively monitored the contract and maintained inadequate
  contract files.

        Administration of the Contract to Build a Breakwater Dock and Log   3
          Boom Fairway at Bighorn Canyon National Recreation Area
                  Contractor
                 Qualifications


 NPS disregarded indications that the
 contractor may not have been qualified
and awarded the contract in order to use
       available FY 2004 funding.



    Administration of the Contract to Build a Breakwater Dock and Log   4
      Boom Fairway at Bighorn Canyon National Recreation Area
                        Contractor
                       Qualifications
Deficiencies in the contractor’s proposals suggested the
contractor did not understand the requirements and was not
qualified. Specifically:

 The Contractor’s proposals were returned as incomplete at least
  twice, once for missing 15 key items.

 Despite several square footage changes, the contractor’s overhead
  bid amount didn’t change. Specifically, NPS changed the square
  footage requirements at least 4 times, ranging from 3,792 square feet
  to 6,060 square feet. Neither the Contracting Officer (CO) nor the
  Contracting Officer’s Representative (COR) questioned why the
  overall overhead bid amount remained unchanged.

          Administration of the Contract to Build a Breakwater Dock and Log   5
            Boom Fairway at Bighorn Canyon National Recreation Area
                       Contractor
                      Qualifications

Neither the CO nor the COR requested a Certificate of
Competency from the Small Business Administration to
ensure the contractor could handle the specialized work.

NPS selected a contractor with no experience building
docks even though the Request for Proposal (RFP) required
the contractor have 10 years experience with dock building.




         Administration of the Contract to Build a Breakwater Dock and Log   6
           Boom Fairway at Bighorn Canyon National Recreation Area
                       Contractor
                      Qualifications

Both the CO and the COR were satisfied with the selection
of the contractor, despite the fact it lacked dock building
experience, because it originally proposed using a highly
qualified subcontractor.

Due to a lack of funding, NPS later disapproved use of the
originally proposed highly qualified subcontractor.




         Administration of the Contract to Build a Breakwater Dock and Log   7
           Boom Fairway at Bighorn Canyon National Recreation Area
                      Contractor
                     Qualifications
FY 2005 funds would not be available to complete the
project. Therefore, in order to use available FY 2004
funds, the CO issued the contract despite:

 Reservations about the contractor’s prior experience and
  qualifications.

 Questions about its proposal.




        Administration of the Contract to Build a Breakwater Dock and Log   8
          Boom Fairway at Bighorn Canyon National Recreation Area
       Contract Issues


NPS issued an incomplete and
   inaccurate contract.




Administration of the Contract to Build a Breakwater Dock and Log   9
  Boom Fairway at Bighorn Canyon National Recreation Area
               Contract Issues


The contract did not contain required Federal Acquisition
Regulation (FAR) clauses including:

 The Termination Clause allowing termination for the convenience
  of the Government.

 The Changes Clause allowing equitable adjustment of price due
  to scope changes.



        Administration of the Contract to Build a Breakwater Dock and Log   10
          Boom Fairway at Bighorn Canyon National Recreation Area
               Contract Issues

The contract did not contain clear specifications and
drawings.

The contract did not contain safety factors later forced on
the contractor.

The contract did not contain standards for submittals.

The contract stated that standard materials were to be
used but the COR rejected submittals indicating more
specialized materials were to be used.
        Administration of the Contract to Build a Breakwater Dock and Log   11
          Boom Fairway at Bighorn Canyon National Recreation Area
               Contract Issues

The contract did not contain a description of the invoice
or progress payment process.

Period of performance was set at 60 days despite the
fact that the government estimate had a 5 month period
of performance. The contract records contained no
explanation for this significant difference.



        Administration of the Contract to Build a Breakwater Dock and Log   12
          Boom Fairway at Bighorn Canyon National Recreation Area
                  Contract Issues


The contract had significant mathematical errors that
resulted in unnecessary payments to the contractor. For
example, the contract allowed 10 percent for overhead.
However, due to math errors, the contractor was actually
paid 14 percent.

NPS improperly used repair and rehabilitation money for
this new construction.



        Administration of the Contract to Build a Breakwater Dock and Log   13
          Boom Fairway at Bighorn Canyon National Recreation Area
                   Contract
                 Administration

NPS had:
     Ineffective monitoring.
     Significant communication problems.
     Inadequate contract files.




      Administration of the Contract to Build a Breakwater Dock and Log   14
        Boom Fairway at Bighorn Canyon National Recreation Area
                              Contract
                             Monitoring
The COR did not effectively or fairly evaluate contractor
submittals. Specifically, the COR:
 Requested unreasonable safety parameters.

 Dictated design parameters that should have been left to the discretion of
  the contractor.

 Requested excessive support for facts and figures used by the contractor in
  its submittals.

The CO obtained a second opinion on the COR’s evaluation
of the submittals. The second opinion stated the COR
inappropriately rejected submittals that were actually in
accordance with contract specifications.
            Administration of the Contract to Build a Breakwater Dock and Log   15
              Boom Fairway at Bighorn Canyon National Recreation Area
                  Communication

NPS made verbal agreements with the contractor that
resulted in numerous misunderstandings.

The COR made constructive changes to the contract that
were never ratified and verbal Notices to Proceed that
were never approved by the CO.

The CO and the COR routinely bypassed the prime
contractor and dealt directly with the subcontractor and
supplier. As a result, the prime contractor was
sometimes unaware of what the subcontractor or
supplier was doing or what NPS expected.

        Administration of the Contract to Build a Breakwater Dock and Log   16
          Boom Fairway at Bighorn Canyon National Recreation Area
                   Communication

Formal Notification to Proceed was vague and unclear
on what work was being authorized. As a result:

 The contractor believed it had authorization for the build phase.

 NPS believed it had only authorized the design phase.




         Administration of the Contract to Build a Breakwater Dock and Log   17
           Boom Fairway at Bighorn Canyon National Recreation Area
                     Contract
                   Documentation
NPS did not maintain adequate contract documentation,
specifically:

 Submittals were returned to the contractor without comment or
  notation of deficiencies and/or approval.

 The CO did not ensure that all parties to the contract received a
  complete and final copy of the approved contract.

 The CO did not properly file documents into an official contract
  file. When administration of the contract was transferred to the
  TCO, all documents arrived loose in a box.

         Administration of the Contract to Build a Breakwater Dock and Log   18
           Boom Fairway at Bighorn Canyon National Recreation Area
                     Contract
                   Documentation

 The CO did not obtain the necessary approvals, required by the
  FAR, to have the same company perform both the design and
  build phases.

 There was no documentation in the contract file to support rates
  (i.e., overhead) negotiated with the contractor.

 The contract file did not contain the required Individual
  Acquisition Plan or the Evaluation Criteria for Award.



         Administration of the Contract to Build a Breakwater Dock and Log   19
           Boom Fairway at Bighorn Canyon National Recreation Area
                        Conclusion

NPS terminated the contract because it lacked
confidence in the contractor’s ability to perform.

NPS wasted approximately $159,000 as a result of this
inappropriate contract award.




        Administration of the Contract to Build a Breakwater Dock and Log   20
          Boom Fairway at Bighorn Canyon National Recreation Area
                      Suggestions

NPS should use sound business judgment when
evaluating potential contractors. Contractors should not
be accepted simply because the end of the fiscal year is
close.

NPS should not accept a proposal based heavily on a
subcontractor’s ability. The only contractual agreement
that NPS can enforce is with the prime contractor.

NPS should not begin the RFP process until a static
requirement and scope of work have been established.
        Administration of the Contract to Build a Breakwater Dock and Log   21
          Boom Fairway at Bighorn Canyon National Recreation Area
                      Suggestions

NPS should implement controls to ensure that repair and
rehabilitation funds are not used for new construction
projects.

NPS should reiterate to all its contracting officers the
importance of maintaining a complete contract file and of
ensuring all required elements are included in each
contract.

NPS should seek and follow the advice of experienced
professionals when undertaking significant construction
projects.

        Administration of the Contract to Build a Breakwater Dock and Log   22
          Boom Fairway at Bighorn Canyon National Recreation Area
                      Suggestions

NPS should reiterate to all COs and CORs that verbal
agreements and/or verbal directions to the contractor are
to be strictly limited.

NPS should ensure that all CORs assigned to oversee
contractor activities, especially on highly specialized
contracts, have the experience and background
necessary to effectively evaluate the contractor’s work.



        Administration of the Contract to Build a Breakwater Dock and Log   23
          Boom Fairway at Bighorn Canyon National Recreation Area
